           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        SINGLE AUDIT OF THE
          STATE OF ILLINOIS
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2009


     December 2010   A-77-11-00006




 MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                        SOCIAL SECURITY
MEMORANDUM

Date:      December 14, 2010                                                Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
           Ended June 30, 2009 (A-77-11-00006)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Illinois for the Fiscal Year ended June 30, 2009. Our objective was
           to report internal control weaknesses, noncompliance issues, and unallowable costs
           identified in the single audit to SSA for resolution action.

           KPMG, LLP performed the audit. The desk review conducted by the Department of
           Health and Human Services (HHS) concluded that the final determination on whether
           the audit met Federal audit requirements will be based on the results of a scheduled
           Quality Control Review (QCR). We have not received the results of the QCR conducted
           by HHS. If HHS determines the audit did not meet Federal requirements, we will notify
           you. In reporting the results of the single audit, we relied entirely on the internal control
           and compliance work performed by KPMG, LLP and the reviews performed by HHS.
           We conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Illinois Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Illinois Department of Human
           Services (IDHS) is the DDS’ parent agency.

           The single audit reported IDHS did not amend the cost allocation plan (CAP) to include
           changes in program administration. Therefore, the methods used to allocate the costs
           of administrative offices to various Federal programs were not approved by HHS’
Page 2 – Rebecca Tothero

Division of Cost Allocation. The corrective action plan indicates that IDHS amended the
CAP to accurately include all costs assigned to its administrative offices, and in
January 2009, the plan was approved by HHS (Attachment A, Pages 1 and 2). We
recommend that SSA work with IDHS to ensure that indirect costs charged to the Illinois
DDS during State Fiscal Year 2009 were in accordance with the CAP’s approved
methodologies and, if not, recover any unallowable costs.

In addition, the single audit reported weaknesses in the State’s allocation of internal
service fund charges to various Federal programs, including SSA. Specifically,

•   Procedures were not adequate to identify fund balances that exceeded the
    maximum amount allowable (Attachment A, Pages 3 through 5). The corrective
    action plan indicated that adjustments would be made annually to reduce exposure
    to excess balances (Attachment A, Page 6).

•   Costs accumulated in the internal service funds were unallowable (Attachment A,
    Pages 7 through 9). The corrective action plan indicates that allowable costs
    supporting multiple funds will be allocated across the benefiting funds and non-
    allowable expenditures will be identified and eliminated from the Statewide CAP
    (Attachment A, Page 9).

We recommended corrective action to SSA on these two findings in prior reports.1 SSA
informed us that appropriate corrective actions were taken on our prior
recommendations during FY 2008. However, these findings continue to be reported in
FY 2009, indicating that the corrective actions taken in FY 2008 did not resolve the
weaknesses in the State’s allocation of internal service fund charges to Federal
programs. Therefore, we recommend that SSA ensure all FY 2009 charges to the
Illinois DDS from the internal service fund were allowable and, if not, recover any
unallowable costs.

The single audit also disclosed the State of Illinois did not have an adequate process in
place to permit the timely preparation of a complete and accurate Schedule of
Expenditures of Federal Awards (Attachment B, Pages 1 through 3). Although this
finding was not specifically identified to SSA, it may impact DDS operations. I am
bringing this matter to your attention as it represents potentially serious service delivery
and financial control problems for the Agency.




1
 SSA OIG, Management Advisory Reports, Single Audit of the State of Illinois for the Fiscal Year Ended
June 30, 2007 (A-77-09-00009), March 2009; and Single Audit of the State of Illinois for the Fiscal Year
Ended June 30, 2008 (A-77-10-00005), March 2010.
Page 3 – Rebecca Tothero

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                             Patrick P. O’Carroll, Jr.
Attachments
Attachment A
  Page 1 of 9
Attachment A
  Page 2 of 9
Attachment A
  Page 3 of 9
Attachment A
  Page 4 of 9
Attachment A
  Page 5 of 9
Attachment A
  Page 6 of 9
Attachment A
  Page 7 of 9
Attachment A
  Page 8 of 9
Attachment A
  Page 9 of 9
Attachment B
  Page 1 of 3
Attachment B
  Page 2 of 3
Attachment B
  Page 3 of 3
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
